August 2009
Report No. AUD-09-018


Material Loss Review of the Bank of
Clark County, Vancouver, Washington




            AUDIT REPORT
                                         Report No. AUD-09-018                                                                              August 2009

                                         Material Loss Review of the Bank of Clark County
                                         Vancouver, Washington
 Federal Deposit Insurance Corporation
                                         Audit Results
Why We Did The Audit
                                         Causes of Failure and Material Loss – The BOCC failed due to bank management’s focus on loan growth
On January 16, 2009, the Washington      concentrated in CRE/ADC and funded with higher-cost wholesale deposits and borrowings. Insufficient attention
State Department of Financial            was paid to establishing sound risk identification and mitigation controls. Bank management increased the bank’s
Institutions (WDFI) closed the Bank      assets at a rate of at least 17 percent annually and, by September 2008, its CRE loans, as a percentage of capital,
of Clark County (BOCC) and named         exceeded 500 percent. The BOCC concentrated its CRE/ADC lending in rapidly growing markets in the Portland,
the FDIC as receiver. On February 4,     Oregon, area that subsequently deteriorated. Losses in the bank’s loan portfolio were exacerbated by weak credit
2009, the FDIC notified the Office of    administration practices, including those related to loan portfolio risk management and problem asset
Inspector General (OIG) that the         administration and resolution. These practices, coupled with an underfunded allowance for loan and lease losses
BOCC’s total assets at closing were      (ALLL), left the bank unprepared and unable to effectively manage operations in a declining economic
$468.1 million and the material loss     environment. As loan losses increased, earnings eroded, liquidity became strained, and BOCC’s capital became
to the Deposit Insurance Fund (DIF)      critically deficient. Ultimately, BOCC was significantly undercapitalized when it was closed by the WDFI.
was $131.4 million. As required by
section 38(k) of the Federal Deposit     During 2008, the bank had significant liquidity problems and became increasingly dependent on wholesale funding.
Insurance (FDI) Act, the OIG             Between December 2007 and December 2008, use of brokered deposits doubled to almost $135 million. According
conducted a material loss review of      to the November 3, 2008 Report of Examination (ROE), the bank’s liquidity levels threatened the bank’s ability to
the failure of BOCC.                     continue as a going concern, and BOCC’s ability to meet daily obligations was heavily dependent on obtaining
                                         Federal Home Loan Bank (FHLB) and the Federal Reserve Bank borrowings, which were unlikely to be sufficient
The audit objectives were to             to cover the bank’s near-term cash needs.
(1) determine the causes of the
financial institution’s failure and      Assessment of FDIC Supervision and PCA Implementation – The FDIC and WDFI provided supervisory
resulting material loss to the DIF and   oversight for BOCC, including through risk management examinations and offsite monitoring, and identified to
(2) evaluate the FDIC’s supervision      bank management the problems that contributed to BOCC’s failure. However, we concluded that the FDIC could
of the institution, including            have exercised greater supervisory concern regarding the results of the 2007 examination that identified, among
implementation of the Prompt             other findings, that the bank’s board of directors (BOD) did not halt or limit higher-risk ADC lending despite
Corrective Action (PCA) provisions       recognizing a slowdown in BOCC’s market area.
of section 38, of the FDI Act.
                                         The November 2008 ROE assigned a composite rating of 5 to BOCC, indicating significant risk to the DIF and a
                                         highly probable failure. During the course of this examination, examiners found that bank staff had not been
Background                               forthright in providing the most current appraisal information on at least 11 lending relationships. Examiners
                                         expanded the loan review and demanded access to all appraisal information. Based on the expanded review,
The BOCC was a state-chartered           examiners determined that an additional provision of $23.7 million was needed for the ALLL to cover credit losses
nonmember bank, insured by the           for a total ALLL of $28.2 million. Significant charge-offs were also required at the end of 2008. As a result of the
FDIC on February 8, 1999 and             November 2008 examination, a Cease and Desist Order (C&D) was presented to the bank on January 15, 2009.
headquartered in Vancouver,              The BOD refused to stipulate to the C&D.
Washington, where the bank had two
offices. The BOCC was a wholly-          Concerning PCA, BOCC was not categorized as Significantly Undercapitalized until just prior to the close of the
owned subsidiary of Clark County         last examination in November 2008. A PCA Notification Letter was issued to BOCC’s BOD on November 28,
Bancorporation (CCB), a one-bank         2008. The FDIC required BOCC to develop and submit a Capital Restoration Plan (CRP) within 45 days of the
holding company also located in          receipt of the PCA Notification Letter. In addition, restrictions were placed on BOCC’s acceptance, renewal, or
Vancouver, Washington. CCB’s             rollover of brokered deposits. Also, BOCC was subject to restrictions, including but not limited to, asset growth,
stock was non-publicly traded. The       acquisitions, new branches, payment of dividends or management fees, and any other capital distributions. On
bank provided business banking           December 23, 2008, the bank submitted its CRP, a Liquidity Plan, and an Adverse Classified Asset Reduction Plan.
services within its marketplace.         However, these supervisory actions and BOCC’s response did not reverse BOCC’s financial deterioration.

The BOCC grew continually over the       The FDIC OIG plans to issue a series of summary reports on material loss reviews and will make appropriate
5 years ended December 31, 2008,         recommendations related to the failure of BOCC and other FDIC-supervised banks at that time.
more than doubling total assets and
total loans and reaching a 30 percent
loan growth in 2 of those 5 years.
                                         Management Response
The bank relied significantly on non-    On July 31, 2009, the Director, Division of Supervision and Consumer Protection (DSC), provided a written
core deposits and borrowings to fund
                                         response to the draft report. In its response, DSC stated that it agreed with the OIG’s finding that BOCC failed
loan growth.                             primarily due to management’s aggressive pursuit of loan growth concentrated in CRE loans. DSC also stated that
                                         BOCC was unprepared and unable to effectively manage its operations given the rapid decline in real estate values
The BOCC’s loan portfolio was            within its local market area.
concentrated in commercial real
estate (CRE) loans, including            With respect to the FDIC’s supervision of BOCC, DSC’s response stated that the 2007 ROE demonstrated the level
acquisition, development, and
                                         of FDIC supervisory concern by: (1) criticizing the increased volume of CRE/ADC lending and recommending the
construction (ADC) loans. These          implementation of more robust risk management procedures and monitoring for CRE and (2) providing specific
CRE/ADC loans were also highly
                                         recommendations for strengthening credit administration and portfolio risk management processes. DSC agreed
concentrated geographically in the
                                         that stronger supervisory actions, such as enforcement actions and component rating downgrades, could have been
Portland, Oregon, market. In 2007,
                                         taken after the 2007 examination.
examiners noted that this market was
affected by a slowdown.

 To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                   Page


BACKGROUND                                                                         2

CAUSES OF FAILURE AND MATERIAL LOSS                                                3
 Higher-Risk Lending Activities                                                    4
   Aggressive Growth Strategy                                                      4
   Concentrations in Commercial Real Estate                                        5
   Underfunded Allowance for Loan and Lease Losses                                 7
 Inadequate Liquidity Planning and Management                                      8
   Dependency on Volatile Funding Sources                                          8
   Inadequate Contingency Liquidity Plan                                          10
 Weak Credit Administration Practices                                             11
   Loan Portfolio Risk Identification                                             11
   Credit Administration and Problem Asset Resolution                             12

FDIC SUPERVISION OF THE BANK OF CLARK COUNTY                                      14
  Historical Snapshot of FDIC Supervision                                         14
  OIG Assessment of FDIC Supervision                                              15
    ADC Concentrations                                                            16
    Allowance for Loan and Lease Losses                                           17
    Volatile Funding                                                              17
    Liquidity Management and Planning                                             18
    Risk Management Practices                                                     18
    Compliance with Laws and Regulations                                          18
    2007 Examination                                                              19
    Conclusion                                                                    19

IMPLEMENTATION OF PCA                                                             20


CORPORATION COMMENTS AND OIG EVALUATION                                           21


APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                           22
  2. GLOSSARY OF TERMS                                                            25
  3. CORPORATION COMMENTS                                                         26
  4. ACRONYMS IN THE REPORT                                                       27


TABLES
  1. Financial Condition of BOCC                                                   3
  2. BOCC’s Growth Rates                                                           4
  3. BOCC’s ADC and Other CRE Loan Concentrations                                  5
  4. BOCC’s Loan Classifications and ALLL for 2001 – 2008                          8
  5. BOCC’s Non-Core Funding Sources and Net Non-Core Funding Dependency           9
     Ratios
  6. BOCC’s Component and Composite Ratings                                       15
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     August 4, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


FROM:                                     /Signed/
                                          Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of the Bank of Clark County,
                                          Vancouver, Washington (Report No. AUD-09-018)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of the Bank
of Clark County, Vancouver, Washington (BOCC). On January 16, 2009, the
Washington Department of Financial Institutions (WDFI) closed the institution and
named the FDIC as receiver. On February 4, 2009, the FDIC notified the OIG that the
BOCC’s total assets at closing were $468.1 million, and the material loss to the Deposit
Insurance Fund (DIF) was $131.4 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology.
Appendix 2 contains a glossary of terms. Acronyms used in the report are listed in
Appendix 4.


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of the BOCC’s failure and the FDIC’s efforts to
    ensure that BOCC’s management operated the bank in a safe and sound manner. The FDIC OIG
    plans to issue a series of summary reports on our observations on the major causes, trends, and
    common characteristics of financial institution failures resulting in a material loss to the DIF.
    Recommendations in the summary reports will address the FDIC’s supervision of the
    institutions, including implementation of the PCA provisions of section 38.


BACKGROUND

    The BOCC was a state-chartered nonmember bank, established and insured by the FDIC on
    February 8, 1999. The BOCC, headquartered in Vancouver, Washington:

       •   had two full-service offices in Vancouver, Washington;

       •   was a wholly-owned subsidiary of Clark County Bancorporation, a one-bank holding
           company located in Vancouver, Washington, whose stock was non-publicly traded;

       •   provided business banking services within its marketplace; and

       •   specialized in commercial real estate (CRE) lending, with concentrations in land
           acquisition, development, and construction (ADC) loans, funded by wholesale sources.

    Details on the BOCC’s financial condition, as of September 2008, and for the 4 preceding
    calendar years follow in Table 1.




                                                    2
    Table 1: Financial Condition of BOCC
     Uniform Bank Performance Report              Sept-08          Dec-07           Dec-06            Dec-05           Dec-04
     Total Assets ($000s)                        $464,810         $403,467         $328,528          $279,060         $233,637
     Total Deposits ($000)                       $376,672         $325,160         $265,851          $246,547         $200,644
     Total Loans ($000s)                         $433,391         $387,655         $297,383          $250,363         $186,193
      Loan Growth Rate                            18.86%           30.60%           18.77%            34.21%           21.68%
     Net Income (Loss) ($000s)                    $1,056            $4,818           $5,048           $3,198           $2,143
     Loan Mix (% of Avg. Gross Loans)
     Total Real Estate Secured Loans               77.71              76.33          77.39             75.04            72.83
      Construction and Development                 38.87              40.54          37.19             28.96            20.33
      Commercial Real Estate                       25.53              24.90          29.18             36.45            42.43
      Multifamily Residential Real Estate           3.62              4.80            4.41             2.64             4.21
      1-4 Family Residential (Excluding
                                                    8.05              4.50            4.14             5.53             5.04
      Home Equity Lines of Credit)
      Home Equity Loans                             1.62              1.57            2.46             1.46             0.82
     Commercial and Industrial Loans               20.54              21.93          20.80             22.83            24.30
     Loans to Individuals                           1.68              2.20            1.73             1.99             2.70
     Funding (%)
     Net Loans/Deposits                           113.56            117.75           110.28           100.12            91.67
     Core Deposits/Assets                          64.87              67.14          62.79             66.18            64.46
     Brokered Deposits/Assets                      20.01              16.54          11.31             16.19            20.66
     Large Time Deposits/Assets                    16.61              17.44          24.09             21.73            24.68
     Federal Home Loan Bank (FHLB)
                                                    8.13              5.23            3.43             2.70             1.07
     Borrowings/Assets
     Net Non-Core Dependency Ratio                50.99%           24.59%           32.03%            29.77%           18.06%
     Examination Information                     11/3/2008         6/4/2007         6/5/2006        12/6/2004         6/23/2003
                                    *
     Component/Composite Ratings                 555554/5         222222/2         222222/2          222222/2         222232/2
     Adverse Classification Ratio                  520%               23%             14%              16%               9%
    Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for Bank of Clark County.
    *
      Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to evaluate a
    bank’s performance in six components represented by the CAMELS acronym: Capital adequacy, Asset quality, Management
    practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each component, and an overall composite
    score, is assigned a rating of 1 through 5, with 1 having the least regulatory concern and 5 having the greatest concern.



CAUSES OF FAILURE AND MATERIAL LOSS

    Since its opening in 1999, BOCC management structured an organization that concentrated its
    assets in CRE and partially funded its loan growth with high-cost wholesale deposits and
    borrowings. Insufficient attention was paid to establishing sound risk identification and
    mitigation controls. Bank management increased the bank’s assets at a rate of at least 17 percent
    annually since 2000, and in September 2008, its ADC and CRE loans, as a percentage of capital,
    totaled 550 percent. The BOCC concentrated its lending in ADC loans in rapidly growing
    markets in the Portland, Oregon, area that subsequently deteriorated economically. The majority
    of the ADC loans were for developmental land and properties (land lots) that experienced greater
    losses and depreciation than home prices. As the Portland economy declined, the volume of the
    bank’s troubled loans increased. Losses in the bank’s loan portfolio were exacerbated by weak


                                                                  3
      credit administration practices related to loan portfolio risk identification and problem asset
      administration and resolution. These practices, coupled with an underfunded allowance for loan
      and lease losses (ALLL), left the bank unprepared and unable to effectively manage operations
      in a declining economic environment. As loan losses increased, earnings and capital eroded,
      liquidity became strained, and BOCC’s capital became critically deficient. Ultimately, BOCC
      was “Significantly Undercapitalized”, under PCA provisions, when it was closed by the WDFI,
      resulting in an estimated material loss of $131.4 million to the DIF.


Higher-Risk Lending Activities

      Aggressive Growth Strategy. From the time the bank was established in February 1999 until
      September 2008, BOCC’s total assets grew at 17 percent or more annually, as shown in Table 2
      below, causing capital ratios to decline as asset growth outpaced capital retention. Management
      kept the bank well by periodic, but temporary, capital infusions from the holding company’s
      credit lines. However, after December 2000, the bank’s capital ratios were consistently
      maintained at a level that was below its peer group average. FDIC examiners identified BOCC’s
      rapid growth and loan concentrations as potential risk areas of concern as early as its “new bank”
      visitation in June 1999. In particular, examiners commented on the bank’s rapid growth in eight
      out of nine examination reports. BOCC’s rate of asset growth was twice that of its peer group in
      7 out of 8 years.

                 Table 2: BOCC’s Growth Rates
                                                                              Net Loan and Lease
                                                  Asset Growth Rate
                        Quarter End                                              Growth Rate
                                                         (%)
                                                                                     (%)
                   Dec 2000                              53.00                       108.47
                   Dec 2001                              49.26                       72.70
                   Dec 2002                              39.99                       44.88
                   Dec 2003                              26.64                       28.99
                   Dec 2004                              35.76                       21.68
                   Dec 2005                              24.78                       34.21
                   Dec 2006                              17.73                       18.77
                   Dec 2007                              22.81                       30.60
                   Sept 2008                             21.87                       18.86
                 Source: OIG Review of UBPRs, ROEs, and Summary Analysis of Examination Reports (SAER).



      BOCC’s management failed to ensure that, as total bank assets increased, the sophistication of
      the bank’s risk identification and monitoring systems also expanded to effectively identify,
      measure, monitor, and control bank operations and risks. Further, according to the FDIC,
      although the real estate market in the Portland area peaked in June 2007, the bank continued to
      increase the ADC loan portfolio after the 2007 examination, even though the bank knew the
      market was softening. One FDIC official we interviewed expressed his opinion that the bank
      management team could not handle the change in the market and did not have the expertise
      needed to curtail lending when needed.


                                                           4
Concentrations in Commercial Real Estate. In our opinion, BOCC’s ADC lending was a
critical factor that led to the failure of the bank and material loss to the DIF. The BOCC
concentrated its lending in ADC loans in rapidly growing markets that subsequently deteriorated.
BOCC’s volume of ADC/CRE loans constituted a higher-risk lending structure. For the
quarterly periods ended December 2002 through December 2007 and September 2008, BOCC’s
combined concentration of ADC and Other CRE3 loans, as a percentage of capital, consistently
exceeded 500 percent, as shown in Table 3.

Table 3: BOCC’s ADC and Other CRE Loan Concentrations
                                                                                            Total ADC and
                             ADC Loans                    Other CRE Loans                 Other CRE Loan
    Period Ended
                      (as a % of Total Capital )      (as a % of Total Capital )            Concentrations
                                                                                      (as a % of Total Capital )
      Dec 1999                   36.00                           87.75                          123.75
      Dec 2000                   97.61                          159.69                          257.30
      Dec 2001                  118.00                          338.79                          456.79
      Dec 2002                   97.11                          470.43                          567.54
      Dec 2003                  157.08                          386.06                          543.14
      Dec 2004                  182.57                          324.87                          507.44
      Dec 2005                  308.40                          299.95                          608.35
      Dec 2006                  347.43                          207.74                          555.17
      Dec 2007                  344.92                          212.51                          557.43
      Sept 2008                 310.87                          238.79                          549.66
Source: OIG Review of UBPRs, ROEs, and SAERs


Despite indicators of deterioration in the Clark County real estate market as early as the first
quarter of 2006 (as noted in the 2007 FDIC examination), management continued to increase
ADC balances and commitments through the second quarter of 2008. Other evidence of
management’s awareness of market deterioration includes bank board of directors’ (BOD)
reports highlighting real estate market trends, as well as updated appraisals on specific credits
showing declining values as early as December 2007.

While increasing its ADC concentrations in rapidly expanding markets, BOCC did not always
adhere to concentration limits related to ADC loans. According to the FDIC, BOCC’s 2007
General Loan Policy included varying levels of concentration limits, including a total
construction limit set at 200 percent of Tier 1 Leverage Capital and a limit of 125 percent of
Tier 1 Leverage Capital on speculative construction. However, according to the FDIC, the
bank’s actual concentration levels exceeded these limits. In addition, the BOD did not halt or
limit the lending activities related to ADC loans despite a significant deterioration in the bank’s
primary lending markets.

Examiners stated in the June 2007 ROE that the BOD did not halt or limit higher-risk lending
related to ADC loans despite recognizing a market slowdown as early as the first quarter of


3
    For the purposes of this report, we used the “Non-Farm Non-Residential” category of loans from the UBPR.


                                                          5
2006.4 As of September 2008, ADC loans totaling $28.9 million were charged off as a loss, and
an additional $53.2 million in loans was classified as non-accrual loans.

The FDIC issued Financial Institution Letter 104-2006 (FIL-104-2006) on December 12, 2006
titled, Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices.
The regulatory agencies were concerned that rising CRE concentrations could expose institutions
to unanticipated earnings and capital volatility in the event of adverse changes in the general
commercial real estate market. The guidance acknowledges that a concentration in the CRE
loans, coupled with weak loan underwriting and depressed CRE markets, may contribute to
significant loan losses.5 The guidance reminds banks that their “… risk management practices
and capital levels should be commensurate with the level and nature of their CRE concentration
risk.” In addition, the guidance provides the following supervisory criteria for identifying
institutions with potentially significant CRE loan concentrations that may warrant greater
supervisory scrutiny.

    •   Total reported loans for construction, land development, and other land represent
        100 percent or more of the institution’s total capital; or

    •   Total commercial real estate loans that represent 300 percent or more of the institution’s
        total capital, and the outstanding balance of the institution’s CRE loan portfolio has
        increased by 50 percent or more during the prior 36 months.

BOCC’s ADC loans increased from 347 percent to 540 percent of total capital between 2006 and
2008. For this period, the bank was consistently in the 93rd and 99th percentile of its peer group.
Based on the above guidance, the concentrations may have warranted additional management
attention.

Further, at the November 2008 examination, examiners determined that the ADC loan
concentrations significantly exceeded supervisory criteria without adequate bank policies,
procedures, and practices for monitoring concentrations, in contravention of Appendix A to Part
365 of the FDIC Rules and Regulations. Appendix A to Part 365 states, in part, that a bank’s
lending policy should contain a general outline of the scope and distribution of the institution’s
credit facilities and the manner in which real estate loans are made, serviced, and collected. In
particular, the institution’s policies on real estate lending should:

    •   Establish a loan portfolio diversification policy and set limits for real estate loans by type
        and geographic market (e.g., limits on higher risk loans).

    •   Identify appropriate terms and conditions by type of real estate loan.

4
  This comment is based on nationwide information. According to the 2008 ROE, the BOCC’s market area decline
was evident in 2007.
5
  Additionally, the FDIC issued FIL-22-2008 on March 17, 2008 entitled, Managing Commercial Real Estate
Concentrations In a Challenging Environment, which re-emphasized the importance of strong capital, ALLL, and
loan risk management practices for state nonmember institutions with significant CRE and construction and
development loan concentrations.


                                                      6
   •   Establish loan origination and approval procedures, both generally and by size and type
       of loan.

Bank management was required to ensure compliance with Part 365 and FIL-104-2006, which
establish heightened risk management priorities for an institution with CRE loan concentrations.
At the November 2008 examination, bank management informed examiners that the bank
intended to decrease ADC exposure by ceasing lending in its market area; however, examiners
noted that divesting of the large non-performing portfolio would be a difficult task. Overall, the
2008 ROE indicated that problems with ADC credits stemmed from a stagnant demand for
developed lots and single-family residences, driving down collateral values and stalling borrower
cash flow.

Underfunded Allowance for Loan and Lease Losses. BOCC’s management did not always
employ an ALLL methodology that fully complied with the Interagency Policy Statement on
Allowance for Loan and Lease Losses. The banking agencies issued the 1993 policy statement to
describe the responsibilities of the BODs and management of banks and savings associations and
of examiners regarding the ALLL. The need to adjust allocation factors used in the ALLL
methodology for changes in market conditions was brought to BOCC management’s attention in
the June 2007 examination. In addition, the June 2007 ROE notes that management needed to
resume its quarterly review of ALLL adequacy, which the bank had recently changed to
semiannual, and review the ALLL factors for reasonableness (a repeat of a similar
recommendation from the 2004 examination). Examiners also recommended that BOCC
management periodically reevaluate the ALLL in light of peer group performance, the
competitive environment, the quality of underwriting and credit review processes, and portfolio
growth goals. In addition, examiners advised management that changes in reserve coverage
should be directionally consistent with those trends and expectations, as well as economic
(particularly real estate) developments.

The June 2007 examination identified a $560,000 shortfall in the ALLL (as shown in Table 4,
which follows), due, in large part, to the deterioration of two lending relationships. (It should be
noted that, the FDIC determined the ALLL level to be adequate up until the 2007 examination
and even after the examination recommended the additional $560,000 provision expense, the
bank maintained a capital category of “Well Capitalized.”) Further, at the November 2008
examination, examiners stated that the methodology used to determine a targeted ALLL did not
follow regulatory guidance and did not provide for a level appropriate for the condition of the
credit portfolio and external market conditions. Management had not adjusted the allocation
factors for various segments of the loan portfolio to address the economic downturn. Bank
management had increased the ALLL by $4.5 million in the fourth quarter of 2008; however,
during the November 2008 examination, examiners found that bank staff had not been forthright
in providing the most current appraised values during the on-site portion of the examination.
The lack of current appraisal information affected at least 11 lending relationships in the
examiners’ original loan review. Examiners returned to the bank and expanded the loan review
to include maximum ADC portfolio penetration and demanded access to all appraisal
information. As a result of the wider review, more time, and full access to pertinent information,
the examiners determined that a $23.7 million increase was needed for the ALLL to cover the
credit losses.


                                                 7
    Adverse loan classifications are a key factor in determining the ALLL. BOCC’s loan
    classifications increased, from $7.8 million in June 2007 to over $96.7 million in November
    2008, as shown in Table 4, which follows. The bank’s adverse classifications coverage ratio
    (Adversely Classified Items to Tier 1 Leverage Capital and ALLL) increased from
    approximately 23 percent to 520 percent, as previously shown in Table 1, over the same period.

    Table 4: BOCC’s Loan Classifications and ALLL for 2001- 2008
                                                             Asset Quality
                                                         (Dollars in Thousands)
                                           Loan Classifications                        Analysis of ALLL
                                                                                                  Increase in
          Examination                                                   Total        ALLL           ALLL
             Date         Substandard      Doubtful       Loss        Classified    Computed       Required
                                                                       Assets       by BOCC           by
                                                                                                  Examiners
         Jan 2001                $990            $73            0         $1,063         $646                0
         Jan 2002               $1,024             0            0         $1,024         $952                0
         June 2003              $1,005         $155             0         $1,160        $1,800               0
         Dec 2004               $2903           $115         $424         $3,442        $2,526               0
         June 2006              $2,380        $1,879            0         $4,259        $3,676               0
         June 2007              $4,378        $2,900        $571          $7,849        $4,413           $560
         Nov 2008              $70,925          $992      $24,819        $96,736        $5,654        $28,201
        Source: OIG Review of UBPRs, ROEs, and SAERs.



Inadequate Liquidity Planning and Management

    Dependency on Volatile Funding Sources. BOCC’s management employed a funding
    structure that centered on higher-cost wholesale funds. Specifically, BOCC relied on wholesale
    funding sources, such as FHLB borrowings; brokered deposits; time deposits of $100,000 or
    greater; and high-rate core deposits to fund asset growth. BOCC management leveraged the
    residential construction loan portfolio by utilizing FHLB borrowings to fund growth and pursued
    ADC loan growth by utilizing brokered deposits. Use of these types of funding sources
    increased the bank’s risk because such sources were higher cost and could be quickly withdrawn
    or restricted in a deteriorating market or if the bank’s financial position declined. According to
    the FDIC, it appeared that bank management did not fully consider the nature or level of risk
    created by using these wholesale funding sources, and management failed to implement
    appropriate risk limits and develop an adequate contingency liquidity plan (CLP).6

    Examiners identified weaknesses in the bank’s funding strategy during the June 2003
    examination. According to examiners, management’s liquidity strategy focused on using higher-
    cost liabilities, particularly brokered deposits to provide funding for loans, and the strategy did
    not furnish sufficient diversification given the lack of adequate liquidity sources or a significant
    low-cost core deposit base. In addition, during the 2003 examination, examiners commented that
    the bank’s average cost of funds for jumbo certificates of deposit (CD) was approximately
    6
     DSC uses the terms CLP, contingency liquidity plan, and contingency funding plan interchangeably. For purposes
    of this report, we use CLP.


                                                           8
4 percent, or 100 basis points above its peer group average. According to the examiners, a
deposit rate sheet listing local financial institutions revealed that the bank was paying the highest
or second-highest deposit rates in the local market, or about 70 basis points above the average
rates for certain deposit categories. Further, the bank’s Chief Operating Officer informed the
examiners that the bank’s policy was to offer current and prospective customers a premium of 50
basis points over published deposit rates if they agreed, or had agreed, to open a checking
account at the bank (no minimum balance requirement). Examiners concluded that the bank’s
high-cost funding resulted from the use of brokered deposits, above-average rates paid on local
deposits, and a lower volume of core deposits. Examiners also concluded that the higher overall
cost of funds indicated potential volatility in the deposit base and contributed to an elevated
liquidity risk profile. The examiners also noted that a contributing factor in the decline in the
bank’s net interest margin was a higher-average cost of funds (3.02 percent compared to the peer
group average of 2.26 percent).

A bank’s net non-core dependency ratio indicates the degree to which the bank is relying on non-
core/wholesale funding: higher ratios indicate greater risk exposure and a reliance on funding
sources that may not be available in times of financial stress or adverse changes in market
conditions. BOCC’s high-cost and non-core funding sources such as FHLB borrowings and
brokered deposits were a significant source for funding the bank’s loan growth strategy that
began in 2001 and ended in 2008. During this period (with the exception of 2007), BOCC was
consistently above its peer group average for net non-core funding, as shown in Table 5, which
follows.

Table 5: BOCC’s Non-Core Funding Sources and Net Non-Core Funding
         Dependency Ratios
                       Non-Core Funding Sources                Net Non-Core Fund Dependency Ratios
   Period                 (Dollars in Thousands)                             (Percent)
   Ended      Time Deposits
                                 Brokered          FHLB         Bank of Clark
               of $100m or                                                          Peer Group
                                  Deposits       Borrowings        County
                   More
 Dec 2001            $30,304         $18,150               0        41.65              10.93
 Dec 2002            $39,719        $32,427              0          40.68              15.29
 Dec 2003            $43,155        $41,698              0          36.79              16.92
 Dec 2004            $44,446        $40,270         $2,000          18.06              16.47
 Dec 2005            $69,064        $39,211         $7,500          29.77              19.20
 Dec 2006            $74,032        $26,205        $29,250          32.03              24.46
 Dec 2007            $49,053        $65,541        $37,000          24.59              25.68
 Dec 2008            $76,894      $134,517         $42,239          59.68              30.43
Source: OIG Review of UBPRs.



The 2008 ROE noted that the bank’s rapid loan growth had been almost entirely reliant on
wholesale funding, leaving an overall lack of liquidity sources to meet contingency funding
requirements.

According to the 2008 ROE, the bank’s liquidity levels threatened the bank’s ability to continue
as a going concern, the bank’s ability to meet daily obligations was heavily dependent on


                                                        9
obtaining FHLB and the Federal Reserve Bank borrowings, and it was unlikely that those
sources would be sufficient to cover the bank’s near-term cash needs. Additionally, according to
the November 3, 2008 ROE, the bank’s FHLB borrowing lines were restricted (and a hold was
placed on the bank’s FHLB deposits), its securities portfolio was fully pledged, and other
borrowing lines at correspondent banks were cancelled.

Further, during the November 2008 examination, examiners found that since September 30,
2006, the bank’s total assets had increased by $156 million, or 51 percent. Core deposit
generation could not keep pace with loan demand; therefore, 79 percent of this growth had been
funded by non-core liabilities. As of September 30, 2008, the net non-core funding dependency
ratio was at a high of 50.99 percent.

As a result of the November 2008 examination findings, the FDIC notified the BOD of the
bank’s change in PCA category to “Significantly Undercapitalized,” subjecting the bank to
brokered deposit and deposit interest rate restrictions. According to the 2008 ROE, as a result of
the institution’s significant asset quality deterioration, 2008 net losses, and “Significantly
Undercapitalized” status, the bank’s current funding structure was unsustainable. BOCC
management was informed that the BOD would have to take the necessary steps to restore the
bank to a sound condition and to immediately raise capital and/or seek merger opportunities.
However, on November 17, 2008, bank management ordered $35 million in additional brokered
deposits, despite being orally informed by regulators on November 14, 2008 that bank
management should consult with the WDFI and FDIC before obtaining additional brokered
deposits. According to the FDIC, on November 28, 2008, after learning of the bank’s
$35 million in additional brokered deposits, it again orally instructed the bank to cease further
brokered deposit activity. On the same day, the FDIC sent a PCA letter to the bank advising it of
its “Undercapitalized” capital category, thus restricting BOCC from obtaining additional
brokered deposits.

Inadequate Contingency Liquidity Plan. BOCC’s BOD did not ensure that reasonable
operating limits and parameters were established or that sufficient mitigating measures were
employed to limit the level of liquidity risk. In addition, CLPs were not adequately formulated.
Since June 2003, examiners repeatedly recommended that the bank formulate, document, and/or
improve a CLP, establish and comply with comprehensive/relevant risk limits, and maintain
adequate funds management policies and monitoring practices. However, bank management
repeatedly failed to fully implement the examiners’ recommendations. In the 2003 ROE,
examiners expressed concern that the asset/liability management policy guidelines for liquidity
were deficient, and a liquidity contingency funding plan needed to be developed and adopted by
the BOD. As a result, examiners recommended a Bank Board Resolution (BBR) to correct the
deficiencies. The BBR was considered substantially completed, based on the results of the 2004
risk examination; however, the bank’s reliance on large CDs continued to be a significant part of
its funding strategy, and liquidity parameters and a monitoring process had not yet been fully
developed.

In addition, the 2004 ROE noted that the bank’s risk management practices needed to be
improved to properly manage the level of risk assumed in the liquidity and funds management
area. During the 2007 examination, examiners noted that the bank had been out of compliance


                                               10
    with several of its liquidity parameters since late 2006. The 2007 ROE contained
    recommendations to further enhance funds management and interest rate risk management
    practices including: enhancing funds management practices by monitoring and managing
    liquidity from a cash-flow perspective; revising the liquidity contingency plan to factor in
    potential deterioration of asset quality and the effects it may have on management’s ability to
    borrow; and analyzing and assessing the volatility of the deposit base.

    During the November 2008 examination, examiners determined that funds management policies
    and procedures were inadequate. Management had implemented daily cash-flow statements and
    longer-term projections at the requirement of regulators; however, the CLP needed to be
    enhanced to include realistic contingent funding sources; all sources listed in the existing plan
    were already in use or had been attempted with limited success. Management also needed to
    ensure that the contingency funding plan fully satisfied liquidity requirements of FIL-84-2008
    Liquidity Risk Management, dated August 26, 2008. The FDIC issued this guidance to highlight
    the importance of liquidity risk management at financial institutions that use wholesale funding,
    securitizations, brokered deposits, and other high-rate funding strategies to ensure that the
    institutions’ contingency funding plans address relevant stress events.


Weak Credit Administration Practices

    Loan Portfolio Risk Identification. BOCC’s management allowed significant loan
    concentrations to exist without adequate risk identification, measuring, monitoring, and controls.
    According to the 2004 ROE, while growing ADC concentrations in rapidly expanding markets,
    management did not identify the need for, or establish, a concentration limit related to CRE and
    ADC loans. Further, according to the 2007 ROE, BOCC’s BOD did not establish risk criteria
    unique to construction and land development lending (i.e., construction delays; cost overruns;
    slow absorption; number of extensions; unit sales prices that were less than appraised value,
    thereby jeopardizing collateral margins, etc). The BOD also did not establish risk limits or
    adequate policies, procedures, and controls to track and report the volume of construction and
    land development loan extensions. In particular, the BOD should have ensured that as the bank
    grew, the sophistication of the bank’s risk identification and monitoring systems expanded to
    effectively identify, measure, monitor, and control bank operations and risk.

    The 2008 examination categorized the loan portfolio risk identification process as inadequate.
    Just prior to the start of this examination, BOCC management downgraded its loan portfolio,
    more than doubling the level of loans required to be placed on the bank’s “Watch” list or worse.
    Nonetheless, as a result of that examination, the number of loans the examiners downgraded was
    staggering, encompassing 40 loan relationships and over $55 million in adverse loan
    classifications.

    Examiners found that BOCC had significantly increased its ADC loan portfolio without
    implementing sufficient programs in a timely manner to identify, measure, monitor, and control
    risk associated with higher-risk ADC loans. Furthermore, BOCC did not establish appropriate
    concentration limits or controls to mitigate risk and did not establish prudent loan underwriting



                                                    11
standards, effective loan administration procedures, and appropriate loan risk management
practices.

Credit Administration and Problem Asset Resolution. Imprudent credit administration and
inadequate problem asset resolution, coupled with a significant downturn in the residential
construction market caused considerable deterioration in BOCC’s credit portfolio. Historically,
BOCC’s management had repeatedly neglected to set risk tolerance limits for the portfolio, failed
to reduce the concentration in CRE and ADC credits, failed to adequately monitor
concentrations, and failed to ensure that credit administration kept pace with the overall growth
in the institution.

During the 2004 examination, examiners noted that nearly half of the loan relationships reviewed
by the examiners contained loan underwriting and credit administration weaknesses related to
loan pricing that was not commensurate with risks, high advance rates on construction or land
acquisition and development loans, appraisals and appraisal reviews, cash flow analysis, credit
presentations, and excessive reliance on the lead bank’s analysis and monitoring for construction
loan participation purchases. During the 2007 examination, examiners noted that a number of
areas needed attention to ensure that risks were identified and controlled in a timely manner and
that a slowndown in local real estate market conditions, coupled with several loans downgraded
by the bank, highlighted the need to upgrade risk management practices and policies. In
addition, examiners advised bank management that it should enhance the appropriate loan
policies and improve underwriting practices with respect to adhering to the applicable appraisal
guidance, laws, and regulations.

Specifically, the 2007 ROE states that for credit administration and underwriting, the bank
should:

   •   Refine internal risk rating definitions to include risk criteria unique to construction and
       land development lending (i.e., construction delays, cost overruns, slow absorption,
       number of extensions, unit sales prices that are less than appraised value and jeopardize
       collateral margins, etc.).

   •   Expand the external review process to include a random sample of existing (as opposed
       to just new, renewed, or recently modified) loans to validate risk ratings.

   •   Track and report the volume of construction and land development loan extensions.

   •   Revise loan presentations to include comments on the loan officer’s investigation of
       environmental risk.

   •   Ensure loan policy adherence by addressing underwriting requirements for
       borrower/guarantor net worth, cash flow, and liquidity to inventory/guidance line
       requirements on credit approval documents.




                                                12
   •   Develop a system of written comments for Watch List Credits that defines the problem,
       establishes a plan of action, defines upgrade and downgrade triggers, and provides a
       timetable for resolution.

   •   Consider adjusting loan pricing for the increased risk resulting from collateral margin
       deterioration or from terming-out land loans.

Further as it related to the loan policy, the ROE states the bank should:

   •   Establish BOD loan approval authority for the bank’s largest borrowers to improve
       vigilance over the commercial lending area.

   •   Incorporate the Part 365 definition of “value” relative to loans used to purchase existing
       property. Value for these loans is defined as the lesser of actual acquisition cost or the
       estimated value.

   •   Add Part 365 aggregate limits for total loans in excess of loan-to-value standard and total
       loans, excluding 1-4 family residential properties. Part 365 – Appendix A sets these
       limits at 100 percent and 30 percent, respectively, of total capital.

   •   Refine non-accrual loan guidelines to require reversal of all previously accrued interest
       on the date of determination.

   •   Define the criteria that will be used to determine if a loan is impaired for purposes of the
       Statement of Financial Accounting Standards (FAS) 114, and revise the bank’s ALLL
       methodology to incorporate FAS 114 accounting in the assessment of ALLL adequacy.

   •   Establish standards for the quality of financial information. (i.e, compiled, reviewed, or
       audited).

   •   Clarify policy guidelines to ensure that loans using real estate collateral as an “abundance
       of caution” meet unsecured lending guidelines.

   •   Develop cash equity requirements for all real estate loans. Current policy allows up to
       100 percent of appreciated equity (excluding appreciation since the time of purchase if
       the property is owned for less than 1 year).

   •   Formalize problem loan collection procedures.

During the November 2008 examination, examiners found that the bank’s credit administration
department, as a whole, lacked structure and leadership. The examiners described the problem
asset identification and resolution process as dysfunctional, with a general lack of documentation
and a slow process for downgrading credits.




                                                13
      Further, examiners found that the bank used inappropriate practices in dealing with problem
      clients, to include multiple extensions of nonperforming credits, capitalization of interest, and
      inadequate control over collateral. The 2008 ROE stated that problem asset reports often took
      over a month to complete after the assets were downgraded, which was unacceptable in the
      rapidly changing market. The shortfalls in problem asset administration appeared to stem from
      very weak and ill-defined processes in this area.

      Overall, it was the examiners’ opinion that the credit department appeared ill-equipped to handle
      the problems facing the bank. Further, examiners noted that the problems were exacerbated by
      the departure of the Chief Credit Officer (CCO), during the examination, causing the credit
      administration capabilities to be severely impaired. The newly appointed CCO had been with
      the institution for just a short period of time and lacked specific knowledge of the credit
      portfolio. Despite the severe level of problem loans, the bank did not have staff specifically
      dedicated to problem asset resolution, loan officers had stated that they lacked experience with
      problem loans, and the Chief Executive Officer had indicated a lack of involvement in the credit
      function.


FDIC SUPERVISION OF THE BANK OF CLARK COUNTY

      The following is a description of the FDIC’s supervision of BOCC and our assessment of that
      supervision.


Historical Snapshot of FDIC Supervision

      DSC’s San Francisco Regional Office (SFRO) and the WDFI alternated safety and soundness
      examinations of BOCC, conducting one visitation and eight examinations from June 1999
      through November 2008. The FDIC cooperates with State banking agencies in many areas,
      including: conducting alternate, joint, and concurrent safety and soundness examinations of
      insured depository institutions; developing and issuing informal and formal enforcement actions;
      and exchanging supervisory information. Such cooperation fulfills a mutual goal of promoting a
      safe and sound banking system. It is recognized that this close cooperation between the FDIC
      and state regulators promotes efficiency in the examination process; reduces the regulatory
      burden on state-chartered, insured depository institutions; and improves the supervisory process.

      BOCC’s composite ratings remained at 2 from the 1999 through 2007 examinations. As a result
      of the November 3, 2008 examination, BOCC’s composite rating was downgraded to 5,
      indicating extremely unsafe and unsound practices or conditions, critically deficient
      performance, and inadequate risk management practices. Table 6, which follows, shows the
      component and composite ratings received by BOCC from 1999 through 2008.




                                                      14
                     Table 6: BOCC’s Component and Composite Ratings
                       Examination Date         Examination Type       CAMELS Rating
                            Nov 2008              Full-scope State        555554/5
                            June 2007             Full-scope FDIC         222222/2
                            June 2006             Full-scope State        222222/2
                            Dec 2004              Full-scope FDIC         222222/2
                            June 2003             Full-scope FDIC         222232/2
                             Jan 2002             Full-scope State        212222/2
                             Jan 2001             Full-scope FDIC         112222/2
                             Jan 2000             Full-scope Joint        112212/2
                            June 1999             Initial Visitation      222222/2
                    Source: OIG Review of UBPR’s, ROEs, and SAER.


      In addition to providing composite and component CAMELS ratings for each FDIC ROE, the
      FDIC took other supervisory actions. In particular, the FDIC’s ROEs made many specific
      recommendations to BOCC to improve areas that included, but were not limited to, the bank’s
      identification and monitoring of loan concentrations, establishment of liquidity risk limits and
      CLPs, internal loan grading system and watch list, and correction of apparent violations of laws
      and regulations.

      To address examiner concerns documented in the June 2003 ROE related to weaknesses in the
      bank’s liquidity and funds management practices, the FDIC requested BOCC to adopt a BBR,
      which the bank’s BOD adopted on July 23, 2003. The BBR contained provisions that addressed
      reducing reliance on potentially volatile wholesale funding sources, diversification of funding
      sources, establishment of a formal BOD-approved CLP, and compliance with customer
      identification program requirements with respect to brokered deposits. During the subsequent
      examination conducted in December 2004, examiners found the bank to be in substantial
      compliance with the July 2003 BBR, although all of the provisions had not been fully
      implemented by the bank. Based on the results of the 2004 FDIC examination, the bank’s
      liquidity rating was upgraded from a 3 to a 2; however, concerns with BOCC’s reliance on
      higher-cost and wholesale (higher-risk) funding was noted in the three subsequent examinations.

      The only formal enforcement action, a Cease and Desist Order (C&D), was originally presented
      to the bank for its consideration on December 16, 2008, before the examination was finalized. It
      was formally presented to the bank on January 15, 2009, 1 day before the bank’s failure. It
      should be noted that the BOD refused to stipulate to the C&D. According to the FDIC, at that
      point, the WDFI issued a supervisory directive to the bank covering many of the items contained
      in the C&D.


OIG Assessment of FDIC Supervision

      From the bank’s inception in 1999, the FDIC and WDFI provided supervisory oversight of
      BOCC in many ways, including a visitation, risk management examinations, and offsite
      monitoring. Examiners identified concerns with BOCC’s significant loan growth and ADC loan


                                                         15
concentrations, and recommended, among other things, that management improve its measuring,
monitoring, and control of the loan portfolio and reduce reliance on potentially volatile funding
sources to fund asset growth. In addition, the ROEs recommended that management improve its
loan underwriting and credit administration processes and noted apparent violations and
contraventions of the FDIC’s Rules and Regulations. Although critical matters that contributed
to the failure were brought to the attention of bank management, the FDIC could have exercised
greater supervisory concern regarding ADC loan concentrations, the ALLL, volatile funding,
liquidity management, and compliance with laws and regulations. Specifically, the 2007
examination findings should have led to elevated supervisory attention and earlier supervisory
action to help prevent the bank’s failure and/or mitigate the potential level of losses incurred.
The impact of the bank’s risk profile became increasingly evident after the real estate market
deteriorated in 2007 and significant delinquencies and losses occurred, starting in 2008. By that
time, however, any actions recommended by the FDIC and taken by BOCC were insufficient to
prevent BOCC’s failure.

ADC Concentrations. From the June 2003 examination until the final examination in
November 2008, examiners noted BOCC’s concentrations in commercial and higher-risk ADC
lending. Specifically, examiners noted concern that BOCC management had repeatedly
neglected to set risk tolerance limits for the loan portfolio, failed to reduce the concentration in
CRE and ADC credits, and failed to ensure that credit administration kept pace with the overall
growth in the institution. Further, the December 2004 ROE notes that some loan portfolio risk
indicators were evident, including continued rapid growth and an increased concentration in
residential construction and ADC loans without appropriate risk limitations set by management.
However, examiner recommendations were limited to improving concentration monitoring or to
adopting combined concentration limits for ADC loans. Examinations, particularly the 2007
examination where the concentrations reached levels in excess of the supervisory guidance as
previously discussed, did not result in recommendations related to limiting concentrations or
mitigating the bank’s risk by requiring BOCC to increase its capital levels. According to the
FDIC, the supervisory guidance does not establish limits or maximums on CRE or ADC lending,
and examiners typically will not set specific concentration limits.

The 2006 CRE guidance reminds institutions that strong risk management practices and
appropriate levels of capital are essential elements of a sound CRE lending program, particularly
when an institution has a concentration in CRE loans. In addition, according to the guidance, an
institution that (1) has experienced rapid growth in CRE lending, (2) has notable exposure to a
specific type of CRE, or (3) is approaching or exceeds the supervisory criteria for such lending
may be identified for further supervisory analysis of the level and nature of its CRE
concentration risk. BOCC’s June 2007 ROE noted that ADC loans totaled 294 percent of total
capital. Further, when committed but unfunded amounts were included, the exposure level
increased to 359 percent of total capital. However, examiners did not make recommendations
for specific concentration and risk limits or to address the need for higher capital levels.
The November 2008 ROE describes the deterioration in the credit portfolio as considerable, with
a staggering $25.6 million in assets classified as loss. According to the ROE, this was caused by
a significant downturn in the residential construction market and BOCC’s inadequate
underwriting and credit administration. The 2008 ROE states further that the leading cause of
the deterioration in loan quality was management’s imprudent risk appetite, as demonstrated in


                                                16
the heavy concentration of ADC credits. The November 2008 ROE states that the BOD
ultimately set a policy limit for ADC lending at 400 percent of capital; however, it was the
examiners’ opinion that the level was excessive.

Allowance for Loan and Lease Losses. From 1999 through the June 2006 examination,
examiners routinely reported that BOCC’s ALLL methodology was satisfactory. Also,
examinations noted that the ALLL and capital levels were commensurate with BOCC’s overall
risk profile because classifications were low, earnings remained satisfactory, and the bank was
“Well Capitalized.” However, the June 2007 examination identified a $560,000 shortfall in the
ALLL, due in large part to the deterioration of two large credits. At that time, examiners
recommended that the bank:

   •   Increase the balance of the ALLL by $560,000 to adequately provide for loans
       downgraded during the examination.

   •   Resume the quarterly review of ALLL adequacy, which had been conducted only
       semiannually. Regulatory guidance requires the BOD to assess the adequacy on a
       quarterly basis.

   •   Review the ALLL factors for reasonableness to include loans secured by land and CRE,
       speculative construction loans, and past dues loans.

At the November 2008 examination, examiners stated that the methodology used to determine a
targeted ALLL did not follow regulatory guidance and did not provide for a reserve level
appropriate for the condition of the credit portfolio and external market conditions. Even though
management had taken a $4.5 million loss provision in the fourth quarter 2008, during the
November 2008 examination, the examiners’ analysis of the ALLL determined that an increase
of $23.7 million was needed to cover the credit losses. In addition, the 2008 examination
contained findings that the ALLL was underfunded and that the loan grading was inaccurate in
several cases. Further, the 2008 ROE contained a repeat recommendation (from the 2007
examination) that the bank needed to adjust risk factors in the ALLL to be directionally
consistent with expectations for growth and area market trends.

Volatile Funding. From June 2003 through June 2007, examiners repeatedly identified the
bank’s reliance on non-core/wholesale funding sources, noting that management had become
increasingly reliant on high-cost, wholesale deposits to fund loan growth. Examiners warned
that the strategy of funding loan growth largely with brokered deposits did not provide adequate
diversification in the funding base and introduced potential liquidity risks if brokered deposits
were not readily available due to capital restrictions or adverse market conditions. Examiners
also identified the bank’s failure to stratify or segment its ADC loan portfolio by risk factors and
risk layers and the lack of risk identification, measuring, monitoring, and controls in relation to
the bank’s liquidity risk profile. However, with the exception of the 2003 examination, the FDIC
did not impose restrictions on the bank’s use of non-core/wholesale funding sources until the
November 2008 examination, when liquidity levels were found to be critically deficient and
threatened the bank’s ability to continue as a going concern. According to the ROE, recent-year
rapid loan growth had been almost entirely reliant on wholesale funding, leaving an overall lack


                                                17
of liquidity sources to meet current funding requirements. At that point, the bank’s ability to
meet daily obligations was heavily dependent on obtaining borrowings from the FHLB and the
Federal Reserve Bank, and it was unlikely that those sources would be sufficient to cover the
bank’s near-term cash needs. Available liquidity sources had been constrained due to the
cancellation of borrowing lines and declining collateral values.

Liquidity Management and Planning. From January 2003 through November 2008,
examiners made recommendations related to the bank’s liquidity policies, formulation of risk
limits, and formulation and documentation of CLPs. Although examiners continually found that
the bank’s liquidity risk was higher than average and the bank’s funding strategy lacked
diversification and was reliant upon brokered deposits, examiners did not express greater
supervisory concern about management’s repeated failures to: formulate, document, and/or
improve a CLP; adequately maintain funds management policies and monitoring procedures; and
establish and maintain compliance with wholesale funding liability risk limits and parameters.

Risk Management Practices. The June 2006 ROE noted that the loan portfolio, which was
heavily concentrated in ADC real-estate-secured loans, could present potential problems in an
economic downturn. However, the examiners’ responses to the questions on risk management
assessment typically did not address the bank’s economic environment or how the bank planned
to respond to a potential deterioration in its key market areas. Examiners did not address the
impact of the slowdown in the Clark County real estate market until the 2007 examination.
According to the risk management assessment in the 2007 ROE, BOCC’s asset quality was
substantially tied to the general health of the Clark County residential real estate market, which
was in the midst of a real estate slowdown that began during the first quarter of 2006. The
conclusion was that the institution remained an active construction and land development lender,
and it was likely that the value of land purchased for both future development and completed
residential lots would decline. In light of the bank’s high level of residential construction-related
credit exposure, examiners recommended that the BOD:

   •   Re-evaluate the validity of key assumptions in the bank’s Strategic Plan in light of the
       continued slowing of the Clark County real estate market.

   •   Review and affirm appropriateness of CRE risk limits in the loan policy to reflect: the
       level and trend of risk in the loan portfolio, the strength and outlook of the real estate
       markets, and the BOD’s CRE risk tolerance levels.

   •   Conduct transactional and portfolio-level stress/sensitivity testing to quantify the
       potential impact of changing economic conditions on asset quality, earnings, and capital.

   •   Monitor trends in residential-related properties on the bank’s books longer than 18
       months.

Compliance with Laws and Regulations. Beginning with the bank’s January 2002
examination through the 2008 examination, examiners cited BOCC for apparent violations of
laws and regulations related to real estate appraisals, loans in excess of supervisory loan-to-value



                                                 18
limits, real estate concentrations, retention of records, standards for safety and soundness,
restrictions on transactions with affiliates, and contraventions of interagency policies on interest
rate risk, loan to value, and ALLL. Also, the 2008 examination cited repeat violations of
appraisal regulations and repeat failure to report loans in excess of supervisory loan-to-value
limits to the BOD. Bank management’s failure to address these concerns may have contributed
to the bank’s increase in the volume of adversely classified loans and losses and, ultimately, to
the failure of the bank.

2007 Examination. The FDIC could have exercised greater supervisory concern at the end of
the 2007 examination and taken additional action to help prevent the bank’s failure and/or to
mitigate the potential level of losses incurred. During that examination, BOCC’s loan portfolio
had deteriorated significantly and was highly concentrated in ADC loans; liquidity issues,
identified as early as the 2003 examination, were uncorrected or in need of improvement; ALLL
was inadequate; and BOCC’s risk profile was increasing. Although examiners identified
numerous ADC loan underwriting and administration weaknesses, management and asset quality
were considered adequate, and no informal or formal corrective action was recommended.

The 2007 ROE stated that internal and external sources indicated that Clark County was in the
midst of a real estate slowdown that began in the first quarter of 2006 and acknowledged that the
bank remained an active construction and land development lender. According to the FDIC,
although the real estate market in the Portland area peaked in June 2007, the bank continued to
increase the ADC loan portfolio after the 2007 examination even though the bank knew the
market was softening. The weak risk management practices and controls left the bank
unprepared and unable to effectively manage operations in a declining economic environment.

Conclusion. Generally, BOCC promised corrective actions for identified deficiencies, and
examiners generally followed up on recommendations at subsequent examinations. However,
the examiners reported the same concerns in several ROEs related to the bank’s measuring,
monitoring, and reporting of concentrations; higher-risk ADC lending; reliance on wholesale
funding; and apparent violations of laws and regulations.

According to DSC management in the SFRO, the ROEs contained many recommendations for
improvement over the years, and the bank gave the appearance of listening and implementing
them. While the bank made efforts to follow the recommendations, regional management was
not assured the efforts were sincere.

Although bank management is ultimately responsible for determining the success or failure of an
institution, the FDIC has authority to take a wide range of supervisory actions. In the case of
BOCC, however, supervisory actions in response to the 2007 examination were not timely and
effective in addressing the bank’s most significant problems. More proactive supervision of
credit administration, growth, and concentrations may have helped at an earlier stage.




                                                 19
IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least possible
    long-term cost to the DIF. PCA establishes a system of restrictions and mandatory and
    discretionary supervisory actions that are to be triggered depending on an institution’s capital
    levels. Part 325 of the FDIC’s Rules and Regulations implements PCA requirements by
    establishing a framework for taking prompt corrective action against insured nonmember banks
    that are not “Adequately Capitalized.”

    As of September 2008 BOCC’s Tier 1 Risk-Based Capital and Total Risk-Based Capital ratios
    were 9.77 percent, and 11.02 percent, respectively. BOCC was not deemed “Undercapitalized”
    until just prior to the close of the last full-scope examination in November 2008 (2 months before
    BOCC was closed). A PCA Notification Letter was issued to BOCC’s BOD on
    November 28, 2008. In the letter transmitting the 2008 ROE to the BOCC BOD, dated
    January 14, 2009, BOCC was deemed “Significantly Undercapitalized” with respect to PCA
    standards. BOCC received a capital component rating of 2 for each of the five examinations
    conducted from January 2002 through June 2007, but the capital component was downgraded to
    a 5 rating in the November 2008 examination. The downgrade resulted from the bank’s critically
    deficient level of capital due to severe asset quality problems and losses that rapidly eroded the
    bank’s capital position. Specifically, aggressive asset growth at 28 percent had outpaced
    earnings retention since the previous examination, compromising capital ratios and weakening
    the bank.

    The FDIC required BOCC to develop and submit a capital restoration plan (CRP) within 45 days
    of the receipt of the PCA Notification Letter. In addition, restrictions were placed on BOCC’s
    acceptance, renewal, or rollover of brokered deposits. Also, BOCC was subject to restrictions on
    asset growth, acquisitions, new activities, new branches, payment of dividends or management
    fees, and on any other capital distributions. On December 23, 2008, the bank submitted its CRP,
    a Liquidity Plan, and an Adverse Classified Asset Reduction Plan.

    On December 2, 2008 the WDFI notified BOCC that it would revoke its charter in 30 days if
    BOCC’s Tier 1 Capital and Total Risk-Based Capital ratios were not increased to 7 percent and
    10 percent, respectively.7 The 30-day letter also required BOCC to reduce adversely classified
    assets to less than 125 percent of Tier 1 Capital and the ALLL.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s financial
    health. In addition, the use of PCA Directives depends on the accuracy of capital ratios in a




    7
     Under Washington law, the state must give a bank at least 30 days to correct identified weaknesses before taking
    action to close the institution.


                                                            20
    financial institution’s Consolidated Reports of Condition and Income (Call Reports).8 BOCC’s
    capital remained in the “Well Capitalized” range long after its operations had begun to
    deteriorate because of problems related to management, asset quality, risk management controls,
    and net losses. In particular, the ALLL was significantly underfunded, which overstated capital
    and underreported the deterioration of the loan portfolio. (It should be noted that the bank was
    still considered “Well Capitalized” after adjusting for the underfunded ALLL in 2007.)

    Further, by the time BOCC’s capital level fell below the required threshold necessary to
    implement PCA, the bank’s condition had deteriorated to the point at which the institution could
    not raise additional needed through its BOD or find other investors to assist in capitalizing the
    bank. Because the holding company was not publicly traded, options for additional capital funds
    were limited.


CORPORATION COMMENTS AND OIG EVALUATION

    On July 31, 2009, the Director, Division of Supervision and Consumer Protection (DSC),
    provided a written response to the draft report. DSC’s response is provided in its entirety as
    Appendix 3 of this report. In its response, DSC stated that it agreed with the OIG’s finding that
    BOCC failed primarily due to management’s aggressive pursuit of loan growth concentrated in
    CRE loans. DSC also stated that BOCC was unprepared and unable to effectively manage its
    operations given the rapid decline in real estate values within its local market area.

    With respect to the FDIC’s supervision of BOCC, DSC’s response stated that the 2007 ROE
    demonstrated the level of FDIC supervisory concern by: (1) criticizing the increased volume of
    CRE/ADC lending and recommending the implementation of more robust risk management
    procedures and monitoring for CRE and (2) providing specific recommendations for
    strengthening credit administration and portfolio risk management processes. DSC also stated,
    “The 2006 Interagency Guidance on CRE Monitoring does not establish specific limits or
    maximums on CRE or ADC lending activity, but sets forth broad supervisory expectations for
    banks that exceed certain thresholds.” We agree that the 2006 interagency guidance does not
    establish limits, but rather supervisory criteria for identifying institutions with potentially
    significant CRE loan concentrations that may warrant greater supervisory scrutiny, as discussed
    in our report.

    DSC agreed that it could have taken stronger supervisory actions such as enforcement actions
    and component rating downgrades after the 2007 examination.



    8
      Every national bank, state member bank, and insured state nonmember bank is required to file Call Reports. The
    Call Reports are normally filed as of the close of business of the last calendar day of each quarter (March, June,
    September, and December). The Call Reports must be completed in an accurate and consistent manner to reflect a
    fair presentation of the bank’s financial condition and results of operations. Certain Call Report data is available to
    the public upon request. The federal agencies use data from the Call Reports to produce UBPRs. UBPRs are used
    by the regulatory agencies for offsite monitoring and during examinations as a source of financial analysis for the
    bank.


                                                              21
                                                                                     APPENDIX 1
                         OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which
      provides, in general, that if a deposit insurance fund incurs a material loss with respect to
      an insured depository institution, on or after July 1, 1993, the Inspector General of the
      appropriate federal banking agency shall prepare a report to that agency reviewing the
      agency’s supervision of the institution. The FDI Act requires that the report be
      completed within 6 months after it becomes apparent that a material loss has been
      incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from February 6, 2009 through July 28, 2009 in accordance with
      generally accepted government auditing standards. However, due to the limited scope
      and objectives established for material loss reviews, which are generally applied to just
      one financial institution, it may not have been feasible to address certain aspects of the
      standards, as described on the next page.

Scope and Methodology

      The scope of this audit included an analysis of BOCC operations from February 8, 1999,
      until its failure on January 16, 2008. Our review also entailed an evaluation of the
      regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

         •   Analyzed examination and visitation reports prepared by the FDIC and the WDFI
             examiners from 1999 to 2008.

         •   Reviewed the following:

                •   Bank data and correspondence maintained at DSC’s SFRO and Portland
                    Field Office.

                •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                    and DSC relating to the bank's closure.

                •   External audit records provided by Moss Adams, LLP, BOCC’s external
                    auditors located in Portland, Oregon.




                                                   22
                                                                                   APPENDIX 1


                •   Bank records maintained by DRR in the Dallas Regional office for
                    information that would provide insight into the bank’s failure.

                •   Pertinent DSC policies and procedures.

         •   Interviewed the following FDIC officials:

                •   DSC management in Washington, D.C., and the SFRO.

                •   DRR officials at the Dallas Regional Office.

                •   FDIC examiners from the DSC Portland, Oregon, Field Office who
                    participated in examinations or reviews of examinations of BOCC.

         •   Met with officials from the WDFI located in Olympia, Washington, to discuss the
             historical perspective of the institution, its examinations, state banking laws, and
             other activities regarding the state's supervision of the bank.

         •   Researched various banking laws and regulations, including Washington State
             laws.

      We performed the audit field work at the DSC SFRO; DSC Portland, Oregon, Field
      Office; and DRR Dallas, Texas, Regional Office.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of BOCC’s
      management controls pertaining to its operations as discussed in the finding section of
      this report.

      For purposes of the audit, we did not rely on computer-processed data to support our
      significant findings and conclusions. Our review centered on interviews, ROEs and
      correspondence, and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.
      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine


                                                  23
                                                                           APPENDIX 1


compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           24
                                                                                   APPENDIX 2
                                GLOSSARY OF TERMS


      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Bank Board          A BBR is an informal corrective action recommended by the FDIC to a
Resolution (BBR)    financial institution to obtain correction of noted safety and soundness or
                    compliance deficiencies. BBRs are voluntary commitments made by a
                    financial institution’s BOD and are not legally enforceable or available to the
                    public.

Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325, subpart B,
(PCA)               of the FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                    325.101, et. seq., implements section 38, Prompt Corrective Action, of the FDI
                    Act, 12 United States Code section 1831o, by establishing a framework for
                    taking prompt supervisory actions against insured nonmember banks that are
                    less than “Adequately Capitalized.” The following terms are used to describe
                    capital adequacy: (1) “Well Capitalized,” (2) “Adequately Capitalized,”
                    (3) “Undercapitalized,” (4) “Significantly Undercapitalized,” and
                    (5) “Critically Undercapitalized.”

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of a bank’s financial data and ratios that
Performance         includes extensive comparisons to peer group performance. The report is
Report (UBPR)       produced by the Federal Financial Institutions Examination Council for the use
                    of banking supervisors, bankers, and the general public and is produced
                    quarterly from Call Report data submitted by banks.




                                              25
                                                                                                               APPENDIX 3
                                  CORPORATION COMMENTS
i2&




      FDIC!
      Federal Deposit Insurance Corporation
      550 171h Stree NW. Washington. DC. 2029-99                          Division at Supeisio an Consumer Protec


                                                                          July 31. 2009


      MEMORANDUM TO:                      Russell A. Rau
                                          Assistant Inspector General for Audits

       FROM:                              Sandra L. Thompson
                                          Director

       SUBJECT:                           Draft Audit Report Entitled, Material Loss Review of Bank of
                                          Clark County, Vancouver, WA (Assignment No. 2009-017)


       Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
       Insurance Corpration's Office of Inspector General (OlG) conducted a material loss review of
       the Bank of   Clark County, Vancouver, Washington, which failed on January 16,2009. This
       memorandum is the response of   the Division of Supervision and Consumer Protection (DSC) to

       the OIG's Draft Audit Report received on July 17,2009.

       We agree with the OIG's findings that the Bank of Clark County failed primarily due to

       management's aggressive pursuit of loan growth concentrated in Commercial Real Estate (CRE)
       loans. Specific concentrations included residential Acquisition, Development, and Construction
       (ADC) loans funded with higher-cost wholesale deposits and borrowings coupled with
       inadequate loan portfolio and risk management controls. In addition, the rapid decline in rcal
       estate values within the local market area left the Bank of Clark County unprepared and unable
       to effectively manage operations in a declining economic market.

       The Draft Audit Report states that the FDIC and the Washington Department of Financial
       Institutions conducted risk management examinations and offsite monitoring, identified
       problems, and prescribed appropriate corrective measures to the management of
                                                                                      the Bank of
       Clark County. The 2007 Report of Examination demonstrates the level of FDIC supervisory
       concern, it criticized the increased volume of CREI ADC lending, and recommended the
       implementation of    more robust risk management procedures and monitoring for CRE.
       Examiners also provided specific recommendations for strengthening credit administration and
       portfolio risk management processes.

       The 2006 Interagency Guidance on eRE Monitoring does not establish specific limits or
       maximums on CRE or ADC lending activity, but sets forth broad supervisory expectations for
       banks that exceed certain thresholds. The 2007 Report of Examination notes that, despite the
       Bank of Clark County's apparently satisfactory financial condition, it had exceeded these
       thresholds and also had inadequate controls. We agree that we could have taken stronger
        supervisory actions such as enforcement actions and component rating downgrades aftcr the
        2007 examination.

        Thank you for thc opportunity to review and comment on the Draft Audit Report.




                                                           26
                                                                         APPENDIX 4
                       ACRONYMS IN THE REPORT


Acronym Definition
ADC     Acquisition, Development, and Construction
ALLL    Allowance for Loan and Lease Losses
BBR     Bank Board Resolution
BOCC    Bank of Clark County
BOD     Board of Directors
C&D     Cease and Desist Order
CAMELS Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity
        to Market Risk
CCO     Chief Credit Officer
CD      Certificate of Deposit
CFO     Chief Financial Officer
CLP     Contingency Liquidity Plan
CRE     Commercial Real Estate
DIF     Deposit Insurance Fund
DRR     Division of Resolutions and Receiverships
DSC     Division of Supervision and Consumer Protection
FAS     Financial Accounting Standards
FDI     Federal Deposit Insurance
FHLB    Federal Home Loan Bank
FIL     Financial Institution Letter
OIG     Office of Inspector General
PCA     Prompt Corrective Action
ROE     Report of Examination
SAER    Summary Analysis of Examination Report
SFRO    San Francisco Regional Office
UBPR    Uniform Bank Performance Report
UFIRS   Uniform Financial Institution Rating System
WDFI    Washington Department of Financial Institutions




                                      27
